IN THE SUPREME COURT OF THE UNITED STATES

No.
JOHN DOE, A/K/A CHEYENNE MOODY DAVIS,
PETITIONER
V.

UNITED STATES OF AMERICA

CERTIFICATE OF SERVICE

I, John S. Williams, counsel for petitioner and a member of
the Bar of this Court, certify that, on July 15, 2019, three copies
of the Petition for Writ of Certiorari in the above-captioned case
were

sent,

by

third-party

commercial

carrier

for

delivery

overnight and by electronic mail, to the following counsel:
Noel J. Francisco, Esq.
Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, N.W., Room 5616
Washington, D.C. 20530
SupremeCtBriefsOusdoj.gov
I further certify that all parties required to be served have
been served.

